• 2fl-.S7fi i
THE UNITED STATES SUPREME COURT

RaySean D. Barber

Vt

Plaintiff-Appellant
v.
Todd Wasmer
Defendant-Respondent

Supreme Court, USFILED

AUG 1 0 2020
OFFICE OF THE Cl fpu'

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
BRIEF FOR APPELLANT

RaySean D. Barber
P.O. Box 22800
Lincoln, NE 68542
Appellant, Pro Se.

;
1.

QUESTIONS PRESENTED

Was Appellant denied Due Process of Law and Effective Assistance of

Counsel where the charging document (information) did not include within the
statement of the nature of the crime the words "proximate cause of the death
of Betty Warren was RaySEan D. Barber's operation of a motor vehicle in
violation of section 60-6,196 or 60-6,197.06 or words meaning the same as said
words as prescribed in the statute and where trial counsel did not object to
said information on that basis?

2.

Was Appellant denied Due Process of Law and Effective Assistance of

Counsel where the trial court, during its advisement to Appellant of the
nature of the charge at the plea colloquy, omitted that the State must prove
that the proximate cause of the death of Betty Warren was Appellant's operation
of a motor vehicle in violation of section 60-6,196 or 60-6,197.06 and where
trial counsel did not object to said advisement on that basis?

3.

Was Appellant denied Due Process of Law and Effective Assistance of

Counsel where the factual basis did not indicate, in the trial court's
subjective view of the evidence, that death was a foreseeable consequence of
the impaired ability to operate a motor vehicle in a prudent and cautious
manner to some appreciable degree due to impairment from alcohol on Appellant's
behalf and where trial counsel did not object to the factual basis on that
basis?

i

TABLE OF CONTENTS

Page(s)
i

Questions Presented

ii

Table of Contents

iii & iv

Table of Authorities

1 & 2

List of Proceedings
Basis for Jurisdiction

2

Jurisdiction

2

Constitutional Provisions

2

Statutory Provisions

3
4 to 8

Statement of the Case

9 to 14

Reasons for Granting the Writ

14

Conclusion

ii

TABLE OF AUTHORITIES

Page(s)
Cases Cited
Birdsly v. State, 1956, 161 Neb. 581, 74 N.W.2d 377

9

Dickens v. State, 1941, 139 Neb. 963, 290 N.W. 869

9

Dutiel v. State, 1939, 135 Neb. 811, 284 N.W. 321

9

Goodloe v. Parratt, 1979, 605 F.2d 1041

9

Hamling v. United States, 1974, 418 U.S. 87, 117

9

Henderson v. Norgan, 1976, 426 U.S. 637

12

Marshal v. Lonberger, 1983, 459 U.S. 422

12

State.v. Back, 1992, 241 Neb. 301, 488 N.W.2d 26
State v. Grotzky, 1992, Not Reported in N.W.2d, 1 Nev. C.A. 914
State v. Irish, 1986, 223 Neb. 814, 394 N.W.2d 879
State v. Miller, 1997, 5 Neb.App. 635, 562 N.W.2d 951

10, 11 & 14
9
12
9

U.S. v. Cheney, 2009, 571 F.3d 764

13

U.S. .v. .-.-Gamble,...2003»: 327 F.3d 662

13

U.S. v. Johnson, 2013, 715 F.3d 1094

13

U.S. v. Mitchell, 1991, 104 F.3d 952

13

U.S. v. Rea, 2002, 300 F.3d 952

13

Constitutional Amendments Cited
12

U.S.C.A. Const.Amend. V
U.S.C.A. Const.Amend. VI

2 & 12

U.S.C.A. Const.Amend. XIV

2 & 12

Statutes Cited
Neb.Rev.Stat. §28-306(1)

3, 4 & 7

Neb.Rev.Stat. §28-306(3)(b)

3, 4 & 9

Neb.Rev.Stat. §60-682.01(f)

3 & 8

iii

Statutes Cont.

Page(s)

Neb.Rev.Stat. §60-6,196

i, 3, 4, 6, 8, 11 & 12

Neb.Rev.Stat. §60-6,197.06

i, 3, 4, 6, 11 & 12

Neb.Rev.Stat. §60-6,213

3 & 8

iv

LIST OF PROCEEDINGS
CRIMINAL PROCEEDING
1.

Court in Question: Douglas County District Court

2.

Docket Number: CR13-1138

3.

Caption: State v. Barber

4.

Date of Entry of Judgment: Appellant entered a plea of no contest and was

found guilty of a Class III felony motor vehicle homicide on June 24, 2013;
Appellant was Sentenced on October 1, 2013.
POSTCONVICTION PROCEEDINGS
1.

Court in Question: Douglas County District Court

2.

Docket Number: CR13-1138

3.

Caption: State v. Barber

4.

Date of Entry of Judgment: The trial court denied postconviction relief

to Appellant on December 02, 2016 with respect to one issue, and May 10, 2017
with respect to all other issues.
POSTCONVICTION APPEAL
1.

Court in Question: Nebraska Court of Appeals

2.

Docket Number: A-17-610

3.

Caption: State v. Barber

4.

Date of Entry of Judgment: on September 25, 2018, the trial court's

judgment was affirmed.
HABEAS CORPUS
1.

Court in Question: United States District Court for the District of

Nebraska
2.

Docket Number: 8:18CV571

3.

Caption: Barber v. Hansen

4.

Date of Entry of Judgment: The District Court dismissed Appellant's

-1-

\

claims with prejudice and denied Appellant a certificate of appealability on
November 26, 2019.
HABEAS APPEAL
1.

Court in Question: The 8th Circuit Court of Appeals for the United States

2.

Docket Number: 20-1233

3.

Caption: Barber v. Wasmer

4.

Date of Entry of Judgment: The 8th Circuit Court of Appeals denied

Appellant a certificate of appealability and dismissed the appeal on May 13,
2020; rehearing was denied July 14, 2020.
BASIS FOR JURISDICTION
1.

Date of Judgment or Order Sought to be Reviewed: On May 13, 2020 the

8th Circuit Court of Appeals denied certificate of appealability.
2.

Date of Any Order Respecting Rehearing: The 8th Circuit Court of Appeals

denied rehearing on July 14, 2020.
JURISDICTION
1.

Statutory Provision Confirring Jurisdiction: 28 U.S.C.A. §1254: Cases

in the courts of appeals may be reviewed by the Supreme Court by the following
methods: (1) By writ of certiorari granted upon the petition of any party to
any civil or criminal case, before or after rendition of judgment or decree...
CONSTITUTIONAL PROVISIONS
1.

U.S.C.A. Const.Amend. VI: In all criminal prosecutions, the accused shall

enjoy the right to... be informed of the nature and cause of the accusation...
2.

U.S.C.A. Const.Amend. VI: In all criminal prosecutions, the accused shall

enjoy the right to... have the assistance of counsel for his defense.
3.

U.S.C.A. Const.Amend. XIV: ...nor shall any state deprive any person of

life, liberty, or property, without due process of law...
STATUTORY PROVISIONS

-2-

1.

Neb.Rev.Stat. §28-306(1): A person who unintentionally causes the death

of another while engaged in the operation of a motor vehicle in violation of
the law of the State of Nebraska or any city or village ordinance commits
motor vehicle homicide.
2.

Neb.Rev.Stat. §28-306(3)(b) (Reissue 2011): If the proximate cause of the

death of another is the operation of a motor vehicle in violation of §60-6,196
or §60-6,197.06:imotor vehicle homicide is a Class III feloney....
3.

Neb.Rev.Stat. §60-682.01(f): Any person who operates a vehicle in

violation of any maximum speed limit established for any highway or freeway is
guilty of a traffic infraction and upon conviction shall be fined: (f) Three
hundred dollars for traveling over thirty-five miles per hour over the speed
limit.
4.

Neb.Rev.Stat. §60-6,196: It shall be unlawful for any person to operate

or be in actual physical control of any motor vehicle:(a) while under the
influence of alcoholic liquor or any drug; (b) when such person has a concen­
tration of eight-hundreths of one gram or more by weight of alcohol per one
hundred millileters of his or her blood; or (c) when such person has a concen­
tration of eight-hundredths of one gram or more by weight of alcohol per two
hundred ten liters of his or her breath. (2) Any person who operates or is in
the actual physical control of any motor vehicle while in a condition described
in subsection (1) of this section shall be guilty of a crime and upon convic­
tion punished as provided in sections 60-6,197.02 to 60-6,197.08.
5.

Neb.Rev.Stat. §60-6,197.06

6.

Neb.Rev.Stat. §60-6,213: Any person who drives any motor vehicle in

such a manner as to indicate an indifferent or wonton disregard for the safety
of persons or property shall be guilty of reckless driving.

-3-

STATEMENT OF THE CASE
On April 15, 2013, an information was filed in the Douglas County District
Court in Omaha, Nebraska, alleging that: "On or about 3, February 2013, in
Douglas County, Nebraska RAYSEAN D. BARBER did then and there unintentionally
cause the death of BETTY WARREN while engaged in the unlawful operation of a
motor vehicle, and while in violation of section 60-6,196 or 60—6,197.06, in
violation of Neb.Rev.Stat. §28—306(1) & (3)(b) a Class III felony.

(Filing

no. 11-11 at CM/ECF p. 4.) On June 24, 2013, a plea colloquy was held in said
court. During this plea colloquy the trial court advised Appellant of the
nature of the charge as follows: "Do you understand the charge to which you
are pleading no contest is the charge of motor vehicular homicide, In order to
convict you of this charge, the State would have to prove that: On or about
the 3rd day of February 2013, here in Douglas County, Nebraska, you did then
and there unintentionally cause the death of Betty Warren while engaged in
the unlawful operation of a motor vehicle and while in violation of §60—6,196
or §60-6,197.06, and this is a Class III felony. Do you understand that?" To
which Appellant answered "Yes." (Filing no. 11-13 at CM/ECF p. 8 & 9.)
The prosecutor, Matthew M. Kuhse, thereafter made a statement of the
factual basis for the plea as follows: "On February 3rd, 2013, here in Dougalas
County, Nebraska, the defendant was observed by witnesses traveling southbound
on Saddle Creek Road in excess of the speed limit. The defendant approached
the area of Saddle Creek and Poppleton Streets, where he was traveling approximately 98 miles per hour in a 35 miles-per-hour zone, The defendant hit a
curb, allowing him to lose control of his vehicle. He struck another car
being driven by Betty Warren. Betty Warren was pronounced dead. An autopsy
conducted by the Douglas County Coroner revealed that she died of internal
injuries attributable to this car accident.

-4-

L

"The police suspected that the defendant was under the influence of a
controlled substance and/or alcohol. His blood was tested, by virtue of him
being transported.for medical treatment, where he had a blood alcohol content
of .146.
"All of these events occurred here in Douglas County, Nebraska." (Filing
no. 11-13 at CM/ECF p. 13.)
Trial counsel, Leslie Cavanaugh, had nothing to add for the factual
basis and found no reason to object to the colloquy. Appellant was thereafter
found guilty of the charge.
On October 1, 2013, Appellant had his sentencing hearing. At this hearing,
the trial court mad a statement in which he stated that the conduct done by
Appellant that night, as far as driving 98 miles-per-hour (mph) on Saddle
Creek Road at midnight while intoxicated "...was more than just bad. judgment.
That was more than just a mistake." (Filing no. 11-13 at CM/ECF p. 23.)
Appellant was then sentenced to serve 20 years to 20 years imprisonment, to
be served in the Nebraska Department of Correctional Services (NDCS).
Appellant thereafter filed a direct appeal, challenging the sentence as
being excessive, to the Nebraska Court of Appeals. The conviction and sentence
was affirmed, and further review was denied by the Nebraska Supreme Court.
On October 17, 2016, Appellant filed his postconviction motion titled
"Second Amended Motion for Postconviction Releif". In this motion he alleged
several things, including that trial counsel was ineffective for failing to
object to the information, failing to object to the advisement of the nature
of the crime by the trial court, and failing to object to the factual basis.
He alleged that the proximate cause element was missing from the information
and that trial counsel should have therefore objected with a motion to dismiss..
Appellant also alleged that because the trial court'advised him . that the State

-5-

had to prove that he intentionally caused the death of Betty Warren, where the
crime requires that the death be caused unintentionally, and because the trial
court omitted from its advisement that the State had to prove that the proximate
cause of the death of Betty Warren was Appellant's operation of a motor vehicle
in violation of Neb.Rev.Stat. §60-6,196 or §60-6,197.06 as is also required by
the crime, trial counsel should have objected to said advisement. Appellant
further alleged in his second amended motion for postconviction relief that
because the statement of the factual basis did not establish that the proximate
cause of the death of Betty Warren was Appellant's operation of a motor vehicle
in violation of §60-6,196, the factual basis was insufficient and trial counsel
should have objected to it therefor. These claims were alleged in grounds one,
two, and three of the Appellant's second amended motion for postconviction
relief. (Filing no. 11-12 at CM/ECF p.214-218.)
A hearing was held for Appellant's claim regarding the trial court's use
of the word "intentionally" at the plea colloquy. There, it was found that the
court reporter accidentally typed in the word "intentionally" and that the
trial court actually said the word "unintentionally". The trial court thereafter filed an order on December 2, 2016, addressing only the part of
Appellant's claim having to do with the trial court's improper advisement of
the nature of the charge where the court reporter accidentally typed in the
word "intentionally". The Court denied relief of this issue without making
findings of fact and conclusions of law on whether the omission of the proxi­
mate cause element was prejudicial to Appellant. (Filing no. 11-12 at CM/ECF
p. 232 to 234.)
On May 10, 2017, the trial court addressed the remaining issues of the
second amended motion for postconviction relief. Regarding claims one, two,
and three of this motion, the trial court found that they all had to do with

-6-

1

the court reporter's mistake with regard to typing the word "intentionally"
and denied the relief requested for the same reason as that set forth in the
trial court's December 2nd order. (Filing no. 11-12 at CM/ECF p. 250-253.)
Issues one, two, and three were all distinct in that issue one had to do with
the trial court's improper advisement, issue two had to do with the insufficient
factual basis, and issue three had to do with trial counsel's failure to object
to the insufficient information, the trial court's improper advisement of the
nature of the charge at the plea colloquy, and to the insufficient factual
basis. The trial court denied relief on all other issues.
Appellant appealed the trial court's order to the Nebraska Court of
Appeals through his postconviction counsel, A. Michael Bianchi. Appellant argued
in his appeal several issues including that the information and the trial
court's advisement failed to mention the words "proximate cause" and that the
factual basis mentions nothing of causation; and that trial counsel was ine­
ffective for failing to object to these infirmities. (Replacement Brief of
Appellant p. 21-24.) The court of Appeals held that the information was
sufficient to charge motor vehicle homicide under §28-306; that the trial
court's advisement was proper in light of the fact that the court reporter
made a mistake (the Court of Appeals did not opine on the trial court's omission
of the proximate cause element); that the factual basis was sufficient and did
show causation; and that trial counsel was not ineffective for not: objecting.
The Court of Appeals found these claims to be without merit. (Opinion of the
Nebraska Court of Appeals p. 9.) Appellant then sought review in pro se from
the Nebraska Supreme Court. Review was denied.
Appellant thereafter filed a petition for a writ of habeas corpus in the
U.S. District Court for the District of Nebraska. In this petition, Appellant
made three claims. First, Appellant claimed that the information was insuffi-

-7-

cient for failing to include the proximate cause element and that trial counsel
was ineffective for failing to object to the information on that basis. Next,
Appellant claimed that the trial court improperly advised him of the nature of
the charge where the trial court omitted the essential element of proximate
cause (Appellant abandoned the claim that the trial court used the word "inten­
tionally" rather than "unintentionally") and that trial counsel was ineffective
for failing to object to the advisement on that basis. Finally, Appellant claimed that the factual basis did not establish that the proximate cause of
the death of Betty Warren was the operation of a motor vehicle in violation of
§60-6,196 as it indicated that the proximate cause of the death of Betty Warren
was Appellant's operation of a motor vehicle in violation of §60-682.01(f) or
§60-6,213, and that trial counsel was ineffective for failing to object to the
factual basis on that basis.
The district court dismissed Appellant's habeas petition by agreeing, in
full, with the Nebraska Court of Appeals. The district court found that claim
one was without merit. With regard to claim two, the district court did not
address the merits of Appellant's claim. The court only addressed the holding
and findings by the Court of Appeals regarding the court reporter's mistake,
the fact that Appellant abandoned that part of this claim notwithstanding.
Regarding claim three the court found in concert with the Court of Appeals.
The court found, as in the previous claim, that Appellant "has failed to rebut,
by clear and convincing evidence, the Nebraska Court of Appeals

factual .

findings. The court denied Appellant a certificate of appealability (COA).
Appellant then appealed the district court's denial of COA to the Eighth
Circuit Court of Appeals, but COA was denied. Appellant filed a petition for
rehearing, which was also denied.

-8-

REASONS FOR GRANTING THE WRIT
BECAUSE THE "PROXIMATE CAUSE" ELEMENT IS ESSENTIAL IN PROVING THAT THE CHARGE
WAS COMMITTED, SAID ELEMENT SHOULD HAVE BEEN INCLUDED IN THE INFORMATION.

This Court has held in Hamling v. United States, 1974, 418 U.S. 87, 117
that "It is generally sufficient that [a charging document] set forth the
offense in the words of the statute itself, as long as

those words of them-

selves fully, directly, and expressly, without any uncertainty or ambiguity,
set forth all the elements necessary to constitute the offense to be punished.

I If

Other courts have made similar holdings. See Dutiel v. State, 1939,

135 Neb. 811, 284 N.W. 321 (the Nebraska Supreme Court held that in order to
charge a statutory offense, information or complaint must contain a distinct
allegation of each essential element of the crime as defined by the law cre­
ating it, either in the language of statute or its equivalent). See also
Dickens v. State, 1941, 139 Neb. 963, 290 N.W. 869 (holding the same); State
v. Grotzky, 1992, Not reported in N.W.2d, 1 Neb. C.A. 914 (holding the same);
Goodloe v. Parratt, 1979, 605 F.2d 1041 (holding the same); and State v. Miller,
1997, 5 Neb.App. 635, 362 N.W.2d 851 (holding the same).
The crime of a Class III felony motor vehicle homicide has a proximate
cause element under Neb.Rev.Stat. §28-306(3)(b). Furthermore, in Birdsly v.
State, 1956, 161 Neb. 581, 74 N.W.2d 377, the Nebraska Supreme Court put it
simply: For conviction of crime of motor vehicle homicide, it is simply required
that the unlawful operation of motor vehicle by accused be proximate cause of
death of another. Additionally, as made clear in multiple Nebraska cases res­
pecting motor vehicle homicide by driving under the influence (DUI), this would
mean that one had consumed alcohol in an amount sufficient to impair to such
an appreciable degree as to cause the death of another, the ability to operate

-9-

a motor vehicle in a prudent and cautious manner.
For example, in State v. Back, 1992, 241 Neb. 301, 488 N.W.2d 26, Back
was driving his parents' Dodge Aspen station wagon from Lincoln, Nebraska to
Malcom via spur 55. Back testified that he was driving at approximately 45 mph
when the accident happened. Back had at least .140 grams per 100 milliliters
of blood of alcohol in his system at the time of the accident. Back hit a
person standing next to a stalled car on the highway. The pathologist stated
that as the level of alcohol in the blood rises, the senses of sight, smell,
hearing, taste, arid touch are affected, as are the brain and central nervous
system . He said that at levels of .10 to .20 of 1 gram by weight of alcohol
per 100 milliliters of blood, there is a deterioration of the above listed
functions, which would effect such things as perception, judgment, reaction
time, coordination, and sight. Additionally, he testified that as the level of
alcohol in the blood increases, the cone of vision narrows, restricting more
and more of the peripheral field of vision.
The Nebraska Supreme Court held that the facts of this accident, as
related above, show circumstantially, at least, a limitation of vision, judg­
ment , reaction time, and perception on Bricks part which, based on the testim­
ony of the pathologist, proximately resulted from the consumption of alcohol
by Back. The Nebraska Supreme Court held in "Back" also that "There is relevant
evidence to establish that at the time of the accident, Back was operating a
motor vehicle while under the influence of alcohol. And the facts also support
a finding by the jury that defendant's condition was contributing proximate
cause of the accident and death of Krantz."
Thus,', not only must a person be driving under the influence at the time
that he or she causes the death of another, but the death must be caused as a
result of the fact that a person was driving under the influence. Also, in

-10-

"Back", the Nebraska Supreme Court held that "proximate cause exists in motor
vehicle homicide case if death was a foreseeable consequence of the unlawful
conduct underlying the charge."
In this instant case, though, the information does not indicate that
death was even a consequence of the fact that Appellant was driving under the
influence of alcohol or drugs. It merely indicates that Appellant was in viola­
tion of the DUI or driving under suspension (DUS) statute at the time that
Appellant caused the death of Betty Warren. Because there is a distinction
between unintentionally causing the death of another while driving under the
influence of alcohol and proximately causing the death of another by driving
under the influence of alcohol, due process required the information, which
appeared to be using the words of the statute, to state the words "proximately
caused the death of Betty Warren by operating a motor vehicle in violation of
§60-6,196 or 60-6,197.06." For, the proximate cause element is also an element
included in the statute that is essential in obtaining a conviction.
Furthermore, because the information did not include an allegation of
the proximate cause element, Appellant was not put on notice of the true nature
of the crime, and thus was not given a fair opportunity to defend himself.
Therefore, trial counsel should have objected to this information on said
ground so that the information could be dismissed, and the prosecution provided with an opportunity to file a new information making a distinct allegation
of each essential element of the crime so as to give Appellant an opportunity
to defend himself.

BECAUSE THE "PROXIMATE CAUSE" ELEMENT IS AN ESSENTIAL ELEMENT WHICH THE STATE
MUST PROVE IN ORDER TO OBTAIN A CONVICTION, THE TRIAL COURT SHOULD HAVE ADVISED
APPELLANT REGARDING THE PROXMATE CAUSE ELEMENT.

-11-

The Nebraska Supreme Court held in State„v. Irish, 1986, 223 Neb. 814,
394 N.W.2d 879, in headnote 4, that in order to support finding that plea of
guilty or nolo contendre has been entered freely, intelligently, voluntarily,
and understandingly, trial court must inform defendant concerning nature of
charge, right to assistance of counsel, right to confront witnesses against
defendant, right to jury trial, and privilege against self-incrimination, and
trial court must establish that there is a factual basis for plea and defendant
knew range of penalties for crime with which he or she is charged. This is a
requirement under U.S.C.A. Cont.Amend. 5, 6, &14. And, surely, due process
requires that the accused be advised of the true nature of the charge as indi­
cated in Henderson v. Morgan, 1976, 426 U.S. 637, and marshal v. Lonberger,
1983, 459 U.S. 422.
As indicated above, the State must prove that the proximate cause of the
death of another is the operation of a motor vehicle in violation of §60-6,196
or §60-6,197.06 in order to obtain a legal conviction for a Class III felony
motor vehicle homicide. But the trial court only advised Appellant essentially
that the State must prove that Appellant unintentionally caused the death of
Betty Warren while driving in violsation of §60-6,196 or §60-6,197.06. As also
indicated above, there is a distinction between unintentionally causing the
death of another while driving under the influence and proximately causing the
death of another by driving under the influence. The former means that at the
time of the causing of the death of another one was driving in violation of
the DUI statute, while the latter means that death was a foreseeable consequence
of the fact that one was driving under the influence. So, all that Appellant
understood when he took his plea was that the State had to prove that he had
consumed too musch alcohol to legally drive and that he caused an accident which
caused the death of Betty Warren. He did not understand that the fact that he

-12-

was allegedly under the influence must have been a factor in causing the acci­
dent because he was not put of notice of this.
Because Appellant was not notified or advised of the true nature of the
crime he was not afforded due process of law, and trial counsel did have an
obligation to object to the trial court's advisement on that basis. Appellant's
plea couldnot be said to have been made freely, knowingly, intelligently, and
voluntarily in! light, of the above facts.

THE STATE TRIAL COURT'S SUBJECTIVE OUTLOOK ON THE EVIDENCE OF THIS CASE INDI­
CATES THAT SAID COURT WAS NOT REASONABLY SUBJECTIVELY SATISFIED THAT THE ■
EVIDENCE INDICATED THAT APPELLANT COMMITTED THE OFFENSE.

The U.S. Court of Appeals held in multiple cases that a factual basis
supporting a guilty plea exists where there is sufficient evidence to allow ..
the district court to be subjectively satisfied that the defendant committed
the offense. See.U.S. v. Rea, 2002, 300 F.3d 952. See. also U.S. v. Gamble,
2003, 327 F.3d 662, U.S. v. Cheney, 2009, 571 F.3d 764, U.S. v. Johnson, 2013,
715 F.3d 1094, and U.S. v. Mitchell, 1977, 104 F.3d 649. The factual basis in
this case indicated that Appellant was driving 98 mph in a 35mph zone when he
hit a curb, causing him to lose control of his car and collide with Betty
Waren's car. Appellant's blood alcohol content (BAC) was .146. The trial court
believed that Appellant's conduct of driving 98 mph in a 35 mph zone at mid­
night on Saddle Creek Road while intoxicated was intentional. But if. Appellant
understood the nature of his unlawful conduct than alcohol cannot be blamed for
said conduct. For, the only way that driving under the influence can be to
blame for causing the death of another is if death occurred as a direct result
of the impaired ability to operate a motor vehicle in a prudent and cautious

-13-

manner to some appreciable degree due to alcohol consumption. See

Back , supra.

Here, the trial court clearly believed that this accident and death had
occurred as a direct result of Appellant's desire to break the rules of the
road by driving 98 mph in a 35 mph zone while intoxicated. The record also
indicates that the trial court believed that speed plus intoxication caused this
accident and death. But because Appellant's ability to drive in a prudent and
cautious manner was not affected by Appellant's consumption of alcohol to any
appreciable degree, and instead Appellant chose to speed on that Road, and
because death was a foreseeable consequence of Appellant's intentional! speeding,
intoxication cannot be blamed for this accident.
So, in light of the trial court's subjective and reasonable outlook on
the evidence in this case it cannot be said that there was sufficient evidence
to allow the trial court to be reasonably subjectively satisfied that Appellant
committed the crime. Trial counsel had an obligation to object to the factual
basis on said basis so that Appellant could demand to take the case to trial.
CONCLUSION
In light of the foregoing, Appellant prays that this Honorable Court will
grant Appellant a writ of certiorari.

Respectively Submitted:
~7
RAYSEAN D. BARBER
P.0. Box 22800
Lincoln, NE 68542
Appellant, Pro Se.

-14-

